2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1043
PAUL G., a conserved adult,
by and through his conservator Steve G.,
Petitioner,
vs.
MONTEREY PENINSULA UNIFIED SCHOOL DISTRICT
and CALIFORNIA DEPARTMENT OF EDUCATION,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION OF
CALIFORNIA DEPARTMENT OF EDUCATION in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 4168 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

39578

